F? n. eV;

(-

ORIQSfMAL
Supreme Court, U S
FILED

No.

AUG 2 1 2020
Lofficeoftheclerk

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
VS.

RoWr4 \<yvao
Uovi

RoA

— RESPONDENT(S)

rSvixf p

ON PETITION FOR A WRIT OF CERTIORARI TO

y.S.

S&cAVytv-t^

£) ^V\ cuV 04r

fW lAcv

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

c5>*
(Your Name)
C/q
pH b I AJ^
(Address)

- £. (
A__

GcjAe^S, F\- l>^0S{o

(City, State, Zip Code)

-7«.b zt7 L s 2-S

T&b Ml -Xoso
(Phone Number)

QUESTIONS PRESENTED

1. Why was the Petitioner denied the Right to Travel and had to pay a fine?
2.

In Earle v McVeigh, 91 US 503, 23 L Ed 398, it says “ Every person is entitled to an
opportunity to be heard in a court of law upon every question involving his rights or
interests, before he is affected by any judicial decision on the question.” Why is the
Petitioner not being heard as of yet?

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgement is the subject of this petition is as follows:
Robert Kynoch, Rod Bruce, Lori Huskisson
Jose Trigo

RELATED CASES
Case No.’s 20-12237,20-12125, 20-12149,20-12024, 20-12234, & 20-12126

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

.2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

,3
.4

REASONS FOR GRANTING THE WRIT

5
6

CONCLUSION

INDEX TO APPENDICES
APPENDIX A- ORDERING AND DESIGNATION OF REPORTER’S TRANSCRIPTS
APPENDIX B-ORDER TO FILE RESPONSE
APPENDIX C-DENIAL OF WRIT OF CERTIORARI
APPENDIX D-MANDATE
APPENDIX E- REDACTION REQUIREMENTS
APPENDIX F-TRANSFERRAL OF WRIT OF CERTIORARI
APPENDIX G-JUDGEMENT AND PAYMENT
APPENDIX H- FLORIDA UNIFORM TRAFFIC CITATION
APPENDIX I-REQUIREMENT OF PAYMENT

APPENDIX J- REQUEST OF CERTIFICATE OF INTERESTED PERSONS

TABLE OF AUTHORITIES CITED

CASES
Earle v Mcveigh

PAGE NUMBER
Questions Presented

Norton vs Shelby County

.4

Khalid vs California.

5

STATUTES AND RULES

.3

\ OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A~'

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

k-iThe opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

A-U
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_^
_^==~ r__
? /JfA

7

No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:

7

The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

/WaAI 2.% 20

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1.

The Treaty of Peace and Friendship of 1836 A.D.

Article 20 and Article 23

2. The Constitution of the United States
Article 6, The 5th Amendment.

3. Article 9 of the Bill of Rights

4. Thompson vs Smith 154 SE 583
5. Asis v. US, 568 F2d 284
6. Title 18, Part 1, Chapter 13 241 of the United States Codes
7. Traffic Light Camera Inadmissible Khalid vs California

3.

STATEMENT OF THE CASE

On or around July 7,2020, David J. Smith issued the Petitioner an order to pay to the
District of South Florida the Docketing Fees with Notice to that office. Also on June 2,2020,
Angela E. Noble, the clerk of Court for the United States District Southern District of Florida,
Issued the Petitioner an Ordering and Designation of Reporter’s Transcript. That was an
unconstitutional Act. Norton vs Shelby County, 118 U.S. 425. On or around September 26,2019,
the Petitioner’s request to proceed in “Forma Pauperis” was denied by Frederico A. Moreno. The
State of Florida’s Department of Highway Safety and Motor Vehicles Division of Motorists
Services issued an order of suspension of drivers license on September 11, 2018 to the Petitioner
Edward Shane West-El. The Petitioner has no contract with the State of Florida or with any other
segment of the United States that can grant Jurisdiction over human rights; or over political,
economic, social and cultural rights of Indigenous Peoples. On April 15,2019 the Petitioner paid
a ticket, suit, court costs in the amount of $277.00 under threat, duress, and coercion. If a
correction is needed from the Neil Carver was the hearing officer on November 1,2018 and
Teresa Pooler errored in her decision in the case. The Petitioner is Moorish American Aboriginal
Indigenous Sovereign Man can Invoke Jurisdiction. The Petitioner has the Right to Travel. The
Universal declaration of Human Rights 1948, Article 3, Everyone has the Right to life, liberty,
and the security of persons. Jose Trigo, Rod Bruce, Lori Huskisson, Robert Kynoch if found
guilty are each being sued for $30,000 for compensatory damages.
4.

REASONS FOR GRANTING THE PETITION
TRAFFIC LIGHT CAMERA INADMISSIBLE KHALID VS CALIFORNIA.
The Universal declaration of Human Rights 1948, Article 3, Everyone has the Right to life,
liberty, and the security of persons.

5.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

:

Date:

< -

Mn

